I,

TRULINC5 22712424 - JOHNSTON, ANDREW J - Unit: TCP-D-B

FROM: 22 M2424
TOl
SUBJECT Petition For Writ of Habeas Corpus
DATE: 06/12/2021 05:48:45 PM

si = s® a a
ORIGINAI

IN THE SUPREME COURT OF THE UNITED STATES
No. (Clerk To Supply)
Mr. Andrew James Johnston,
\
-J
Petitioner,

filed
JUN 2 2 2021

r>

i-U
)

ORIGINAL PETITION FOR WRIT OF HABEAS CORPUS

To: Mrs. Amy Coney-Barrett, Associate Justice
Supreme Court of the United States
Washington, DC 20543-0001

Executed on:

0&1 /?!

X

m.

/

Mr. Andrew James Johnston
Prisoner ID No. 22712424
United States Penitentiary
P.O. Box 24550
Tucson, Arizona 85734
QUESTION PRESENTED
Will this Court issue a writ of habeas corpus that vacates the conviction and sentence imposed in Case No. 1:17-cr-517,
under a version of a federal criminal statute that was not passed by Congress in violation of Article I, Section I?
JURISDICTION
The juris diction of this Court is founded upon the Judiciary Acts of 1789 and 1867, as interpreted by Felker v. Turpin, 518 U.S.
651,660-6 61 (1996), which authorizes this Court to hear original habeas petitions directed at individual justices, or the entire
Court as a whole, independent of the Anti-Effective Death Penalty Act or any proceedings thereunder.
TABLE OF AUTHORITIES
ORGANIC
U.S. Constitution, Article I, Section I

I RECEIVED
JUN 2 2 202)

U.S. Constitution, Article III, Section 2

SUPREME^JnhPT-Fi1^

CASES

TRULINC5 22712424 - JOHNSTON, ANDREW J - Unit: TCP-D-B

Felker v. T urpin, 518 U.S. 651,660-661 (1996)
Kolender v . Lawson, 461 U.S. 352, 357 (1983)
United States v. Davis, 139 S. Ct. 2319 (2019)
United States v. Jones, 713 F.3d 336, 339-340 (CA7 2013)
United States v. Loniello, 610 F.3d 488, 492 (CA7 2010)
United States v. Thornton, 539 F.3d 741,747, 749 (CA7 2008)
STATUTES
18U.S.C. Section 2113(a)P1
18U.S.C. Section 2113(a)P2
OTHER
Sta're Dec 'sis
STATEMENT OF FACTS
On July 25, 2017, petitioner was arrested. On August 23, 2017 petitioner filed a false arrest suit, Case No. 1:17-cv-6183, and
on August 24, 2017 a grand jury returned an indictment against ANDREW JOHNSTON charging a single count of attempted
bank robbSry in violation of 18 U.S.C. Section 2113(a)P1. After extensive unsuccessful pretrial motion and extraordinary writ
practice, ir eluding a motion to dismiss for failure to state a charge, R. #216, petitioner was forced to stand trial "or plead guilty"
on January 8, 2019.
Special Ncte: an appeal is currently pending in the court of appeals, No. 21-1746, that seeks the production of the January 8,
2019 for the first time; and a petition for writ of prohibition about the same pending as well, No. 21-2073.
On Janu ary 9, 2019, the jury instructions that were in place were adopted by the district court on August 2, 2018 as no
subsequent jury instructions conferences were held following August 2, 2018. Specifically, as a result of the August 2, 2018
conference!, the district court stated:
"Defendant Johnston has been charged with violating the first paragraph of
18 U.S.C. Section 2113(a), which prohibits the act of taking or attempting
to take property or money from a bank 'by force and violence, or by intimidation'"
[] and wen: on to cite "United States v. Loniello, 610 F.3d 488, 491 (7th Cir. 2010)."
Case No. 1:17-cr-517, Dkt. No. 201, Page 1, Filed August 7, 2018.
On Janu ary 9, 2019, petitioner, representing himself, cross-examined bank teller supervisor, Sharon Byrne, about her
interaction with the suspect on July 25, 2017 as follows:
"Mr. Johnston: What did he say initially?
Ms. Byrne: My wife and kids have been kidnapped. They are going to rape and kill them. My brother-in-law has a gambling
problem. I need money. And he gave an estimated amount of like — I want to say it was like $28 - 3500."
R. #330, Page 34, Id. at 9 -16
"Mr. Johnston: And did you hear that individual instruct her to come closer?
Ms. Byrne: No, I did not.
Mr. Johnst an: Did you hear the individual say anything about a robbery? Did you hear the word 'robbery'?

TRULINCi 22712424 - JOHNSTON, ANDREW J - Unit: TCP-D-B

O' dps

Ms. Byrne: No."
R. #330, Page 34 Id. at 23 - Page 35, Id. at 1 - 4.
"Mr. Johnston: You stated that you were about three to four feet away from the suspect when he approached the counter? Is
that true?
Ms. Byrne: Yes.
Mr. Johnston: Did you hear the suspect make any threat to you or to Ms. Nevarez?
Ms. Byrne: No.
Mr. Johnston: Did he say he was going to harm you or Ms. Nevarez in anyway if he did not get what he was asking for?
Ms. Byrne: No.
Mr. Johnston: Did he mention a weapon? Did he mention any form of violence towards your or Ms. Nevarez as you stood on the
other side of the countertop that day?
Ms. Byrne: No."
R. #330, Page 47, Id. at 6 - 23.
Later thal evening after the jury had been sent home, the trial court held a surprise jury instruction conference after hearing the
above stat 3d testimony:
"The Courl: All right. Government Instruction No. 16 is the pattern 4.01, attempted bank robbery. The elements are the attempt,
deposits insured, use of intimidation.
Mr. Johnston: We resolved to include 'the defendant acted to take such money by force and violence or by intimidation.' The
pattern instruction includes all three elements. The actual intimidation has to be proven beyond a reasonable doubt, even
though its an attempted bank robbery. So to dilute that element, to me, would be extremely prejudicial.
Mr. Bond: Judge, the pattern instruction -- the indictment in this case charges the act was by intimidation. There is no evidence
that we are presenting of force in this case. To add those elements to the instruction would cause confusion, we believe, with
the jurors. I think leaving it strictly as intimidation, as is charged in the indictment and as the evidence has been presented,
would be the proper way to instruct the jury.
IVIr. Johnstan: You already ruled on it --1 believe it was July -- that we would include whoever by - the defendant acted by force
and violence or by intimidation. And as you may be aware, the government also proposed an additional definition of 'attempt'
and 'knowingly'. So they are already trying to -- and then the definition of 'intimidation' in Instructions 19,18, and 17 that follow
right behind it. So they are already trying to water down intimidation, what it means, and make it just simply like, boo, and it's
intimidation, is [what] I get from this instruction.
The Court: Let me just take a look at the pattern.
Mr. Johnston: The authority for that is United States v. Thornton, if I'm not mistaken.
Mr. Bond: =orce, violence, and intimidation are different means. They are different elements, Judge. The intimidation is what
was charged in this case. There was no violence charged. There was no force charged. It was charged as intimidation.
Mr. Johnstpn: That was the reason why I asked for the lesser included offense, was because it was so close to on the border
there. So you took that lesser included offense away from me and included the 'whoever by force and violence or by
intimidatioji.' So i felt like that was a fair compromise, by taking away the lesser included offense, and it's in the pattern.
The Court: I didn't take anything away from you.

TRULINCS 22712424 - JOHNSTON, ANDREW J - Unit: TCP-D-B
Mr. Johnston: I mean, it was there, but then we^wenfback-over-it-tnitiallv-vou^aranted it when you read Prince out in the court,
and Ms. Ardam brought up [Loniello], if you recall.
~
~
"------------Ms. Ardarr: Your Honor, if I just may, for a second? Jury instructions is not a competition. The jury has to be properly instructed
by the law It's also the responsibility of the Court. There is no evidence of those means. The jury should --1 think its, quite
frankly, evon more prejudicial for them to receive that instruction that it could be violence or it could be force. But-!■

Mr. Johnstcn: That's what the pattern reads. I didn't write the pattern.
The Court: It says -- the pattern says, the defendant acted to take such money or property by force and violence or by
intimidation. I think the government is conceding, there is no force or violence. They are saying the only thing they are going to
try to prove here is intimidation. So you want to include force or violence in order to show that in some other case they would
h,ave to prove that; is that right?
Mr. Johnston: No. I want to show force and violence because if, God forbid, I am convicted, intimidation still qualifies as a -- it's
been interpreted to mean a crime of violence for career offender provisions for sentencing things and stuff like that.
Tlie Court: We can't change that, though.
Mr. Johnston: Right. So the burden is enumerated in the pattern, and I feel like omitting those two elements, which are already
there, is prejudicial to me, because I basically built my defense around showing them that there was insufficient evidence to
satisfy these elements.
The Court: Right. I think you are right. I don't think its contested that there is no evidence of violence in this case.
Mr. Johnston: I mean, the thing is that from -- I'll give you my footing. Thornton. Thornton was outside of a bank. He had a
machine g jn in a suitcase, or something like that. He walked up to the handle of the door, he touched it, noticed somebody in
the drive-up window, didn't go in the bank, and got nervous and walked away. The guy called the police. They came and
arrested him. They found him with the machine gun on him. They charged him with attempted bank robbery by intimidation. So
the Sevenlh Circuit interpreted that, and they said that they don't lose their burden on intimidation. That includes the way that
they wrote the pattern instruction, to me. That burden, it goes with it. That's the whole point. Intimidation has been defined as a
threat offeree, an implied gesture. Like this is intimidation (indicating), putting your hand in your shirt or something like that. So
what they are trying to do, ultimately, is water that down to where 'oh, she had a nervous breakdown. She was shocked by the
experience of this. That's intimidation.' That's not intimidation. Intimidation is a threat of force and fear of bodily harm.
The Court: I think you have got a good argument. I think you have got a good argument. You could say, they haven't shown
intimidation. Nobody was intimidated here. She had this nervous breakdown, but that has nothing to do with intimidation. I don’t
know how that relates to this discussion we are having, though, which is whether or not we need to put back in something the
government agrees its not going to prove-up. The instruction says 'or by intimidation'. I think its reasonable to take out the
reference lo force and violence, because the government concedes its not proving that. So I am going to adopt Government
Instruction No. 16."
R. #331, Page 142, Id. at 13 - Page 147, Id. at 1 -14.

TRULINC5 22712424 - JOHNSTON, ANDREW J - Unit: TCP-D-B

FROM: 22712424
TO:
SUBJECT: Petition For Writ of Habeas Corpus II
DATE: 06/ 12/2021 05:48:57 PM

...fr

On January 21, 2019, petitioner filed his renewed motion for judgment of acquittal and motion for a new trial, R. #303, #304,
which argied the district court's adoption of Government Instruction No. 16 over petitioner's objection removed intimidation from
its original context of force and violence and frustrated the entire Section 2113 statutory scheme against legislative intent in
violation ol Article I, Section I, of the Constitution. R. #303, Pages 3-5. And in reply to the United States' opposition to that
motion reitsrated that the principal clause was "force and violence" and "intimidation" is the proviso which should have its
generality ’estricted by the principal clause. R. #334, Pages 2 - 3.
On November 12, 2019, petitioner raised the exact same issue on direct appeal in the opening brief. Appeal No. 19-1624,
Opening Brief, Pages 34 - 38. And once again, fortified that position in his reply brief on March 20, 2020. On May 11, 2020, the
court of appeals devoted three sentences to explain its justification of the district court's violation of Article I, Section I. Appeal
No. 19-1624, May 11,2020 Order, Page 5, Paragraph 1.
Petitioner raised the same issue in his petition for rehearing en banc, which was denied on July 14, 2020, and in his petition
for writ of certiorari, which was denied January 19, 2021. On rehearing from the denial of certiorari, this was the sole issue
petitioner presented for review, however the petition for rehearing was denied on April 19, 2021. S. Ct. No. 20-6487. On April
23, 2021, petitioner filed a petition for writ of certiorari to the April 19, 2021 decision by this court denying rehearing with the
International Court of Justice, P.O. Box 19519, 2500 CM, The Netherlands, Certified Mail Tracking No. 664303972US.
Special Ncte: there is an appeal pending regarding the dismissal of a civil complaint for the mistranscription of trial transcripts in
the above stated portion during cross-examination of Byme, appeal no. 21-1221.
REASONS FOR GRANTING THE WRIT
The government proceeds directly from the people. U.S. Const. Article I, Section I. The people passed Section 2113(a)
through their elected representatives to be the most serious section of the Section 2113 overall scheme. This was done with a
view that" ntimidation" would be in the context of "force and violence", not freewheeling in generality. The applicable precedent,
Jones, Thornton, Loniello, Kolender, and Davis, supra, reinforce this position. Petitioner is being held in violation of Article I,
Section I, because he is convicted under a version of Section 2113(a)P1 that Congress did not pass as the trial court
reconstructed the statute through its surprise jury instruction conference on January 9, 2019. As a result, petitioner stands
sentenced as though the suspect in the bank brandished a pistol because of the gap in the law created by the trial court's
omission of "force and violence" from the instruction. This is a classic violation of separation of powers between the Judiciary
and the Legislative branches of the National government. For these reasons, this Court should issue a writ of habeas corpus
that vacate s the above stated conviction and sentence, order a new trial with the proper instructions to the jury, and any
relief the cpurt may deem fair and just at the earliest opportunity available.
:

CONCLUSION

Wherefo -e petitioner prays the Court grants this petition and the relief requested for the foregoing reasons.
Respectfully Submittei
x

W21
Mr. Andrew James Johnston

Executed on:

ok

£

^/& * (rnA&Jx <^}^L
s

yp---------- .

. ■

■—

/£g&r* C&fa/<A
£Z£-&&7k$T A "’"
?A {7&> S*7Wlp4>

--------------- ----------- ---- , £MZ£
(2^H
<3z&A9^ &a #s?fip&+x

y'

'

,~j

P&#/^/AS?ap&A 7^X *>

tf&k/' $

*U?f??6ev{

LAh

'&?//!<? $h<r/^<4??.

SA p4L

<$rf(S&cf
-i y^Lj&t^Af

*=$-

__

^

e^/s*i /A lsr6>4p4&A

Ae <3%V*? --4s*Zf 7*^
'o.

(AtefiS.
A
&

£2

AAl

A
Sr.

£
dkz^A£. <2° e^Z&Z <?A <%

v- AAf/Qj
zZa&ASS/ciAZ

V

CZc/lY^^fc^ cp^
--------#/&£?£/--

)d-^x $c &4s*i

^

0&.

Y

<W4Af

